Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





PREADMISSION SCREENING AND 

RESIDENT REVIEW FOR YOUNGER 

 NURSING FACILITY RESIDENTS 

WITH SERIOUS MENTAL ILLNESS





                    Daniel R. Levinson

                     Inspector General 


                      January 2007

                     OEI-05-05-00220

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help to reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                   S U M M A R Y                                                



                  OBJECTIVE
                  1. 	 To examine the extent to which Preadmission Screening and
                       Resident Review (PASRR) requirements were addressed for
                       Medicaid nursing facility residents aged 22 to 64 with serious
                       mental illness within selected States and selected nursing facilities.

                  2. 	 To assess Federal and State oversight of the PASRR process.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 (OBRA 87) mandated
                  preadmission screening for individuals suspected of having mental
                  illness and mental retardation or related conditions to ensure that:
                  (1) nursing facilities admit only individuals needing nursing facility
                  care, (2) these individuals’ needs for specialized services are determined,
                  and (3) these individuals obtain the services identified through the
                  preadmission screening. The PASRR is the primary mechanism used to
                  meet these objectives. This report focuses exclusively on the PASRR as
                  it relates to individuals with mental illness. We concurrently conducted
                  a separate review of the PASRR as it relates to individuals with mental
                  retardation.

                  All individuals who apply to or reside in Medicaid nursing facilities are
                  required to receive a Level I screen to identify suspected serious mental
                  illness. Those suspected of having serious mental illness must receive a
                  Level II PASRR to confirm that they have serious mental illness, to
                  determine whether they require nursing facility services, and to
                  determine whether they require specialized services.

                  The Centers for Medicare & Medicaid Services (CMS) and State
                  Medicaid agencies are responsible for administering and overseeing the
                  PASRR process. The State Mental Health Authorities are responsible
                  for determining the most appropriate placement and services for each
                  nursing facility applicant.

                  To assess the PASRR, we selected a purposive sample of five States. We
                  reviewed 186 case files of Medicaid nursing facility residents aged 22 to
                  64 with serious mental illness from 4 purposively selected nursing
                  facilities per State. We also interviewed State officials, nursing facility
                  staff, and CMS staff, and reviewed States’ PASRR policy documents and
                  forms.



OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   i
E X E C U T I V E                      S U           M M A R Y 




                   FINDINGS
                   Almost all sampled residents with serious mental illness received a
                   Level I screen that met all Federal requirements. We found that
                   90 percent (168 of 186) of sampled residents had a Level I screen.
                   Eighty-two percent (138 of 168) of Level I screens met both timing and
                   content requirements.
                   Two-thirds of sampled residents with serious mental illness had
                   evidence of a Level II PASRR, but only 5 percent met all Federal
                   requirements. Sixty-seven percent (124 of 186) of sampled resident
                   case files contained evidence of a Level II PASRR. Five percent of these
                   Level II PASRRs met both timing and content requirements. Most
                   Level II PASRRs contained required information regarding placement
                   and recommended mental health services.
                   Eighty-five percent of sampled residents who received a Level II
                   PASRR had mental health service recommendations. Thirty-three
                   percent had all recommended services incorporated into their care
                   plans. Of those sampled residents who received a Level II PASRR,
                   85 percent (103 of 121) received one or more mental health
                   recommendations. All Level II PASRRs are required to include mental
                   health service recommendations necessary to meet the evaluated
                   individual’s needs. Thirty-three percent of residents who received
                   mental health recommendations in their Level II PASRR had all of the
                   recommended services incorporated into their care plans.
                   Consideration of community-based settings may not always occur
                   as part of the Level II PASRR process. Federal regulations require
                   that Level II PASRR evaluators assess whether the individual’s total
                   needs can be met in an appropriate alternative placement to nursing
                   facilities, including community-based settings, inpatient hospitals, and
                   Institutions for Mental Diseases. However, only two out of five selected
                   States’ Level II evaluation forms prompt evaluators to consider
                   community-based placement. Additionally, respondents from all five
                   States reported concern that individuals aged 22 to 64 with serious
                   mental illness are inappropriately placed in nursing facilities. Finally,
                   we found that 85 percent of 2004 Level II PASRRs for individuals with
                   serious mental illness aged 22 to 64 in the five selected States resulted
                   in nursing home placement. Two percent resulted in community-based
                   placement.




 OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   ii
E X E C U T I V E                      S U           M M A R Y


                   CMS conducts limited oversight; all five selected States monitor
                   aspects of the PASRR process. Most CMS regional offices report
                   providing limited guidance and oversight to States regarding their
                   PASRR process. To ensure that nursing facility residents receive
                   Level I screens, all five selected State Medicaid agencies report that
                   Medicaid payment to nursing facilities is linked to the completion of the
                   Level I screen. While State Medicaid agencies must maintain ultimate
                   control and responsibility over the PASRR process, only three of five
                   selected States report that they systematically monitor the Level II
                   PASRR process to ensure appropriate placement and treatment.
                   Further, the nursing facility Survey and Certification process does not
                   provide systematic oversight of the PASRR process.


                   RECOMMENDATIONS
                   The OBRA 87 mandated preadmission screening to ensure that
                   individuals with mental illness are not inappropriately placed in
                   Medicaid nursing facilities. The PASRR is the primary mechanism used
                   to ensure that individuals aged 22 to 64 with serious mental illness are
                   appropriately screened, thoroughly evaluated, and placed in nursing
                   facilities when appropriate, and receive all necessary services. As such,
                   it is essential that the PASRR process work effectively.

                   We based our findings on a purposive sample and have not made a
                   statistical projection. However, our findings indicate that there are
                   deficiencies in the PASRR process that should be addressed to ensure
                   that individuals with serious mental illness are appropriately placed
                   and receive necessary services.

                   We recommend that CMS hold State Medicaid agencies accountable for
                   ensuring compliance with Federal requirements. Specifically, we
                   recommend that:
                   o	 every nursing facility applicant receive a Level I screen prior to
                      nursing facility admission,
                   o	 all individuals with a suspected serious mental illness receive a
                      complete Level II PASRR prior to nursing facility admission and
                      that all Level II PASRR documentation is shared with the
                      admitting nursing facility, and
                   o	 the admitting nursing facility incorporate all recommended services
                      identified on the Level II PASRR into residents’ care plans and
                      provide for or arrange all of these services.

 OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   iii
E X E C U T I V E                      S U           M M A R Y


                   We also recommend that CMS hold States accountable for considering
                   community placements during the Level II PASRR process by:
                   o	 working with State Medicaid agencies to develop tools, such as
                      protocol, forms, and guidance to evaluators, to ensure that
                      community-based alternatives to nursing facility placement are
                      considered; and
                   o	 reviewing all States’ Level II PASRR evaluation forms to ensure
                      that consideration of community placement is included.

                   Finally, we recommend that CMS revise survey and certification
                   requirements to ensure that State surveyors sample residents with
                   serious mental illness, review PASRR documentation for timely
                   completion, and review care plans for the incorporation of all Level II
                   mental health service recommendations.


                   AGENCY COMMENTS
                   CMS concurred with all of our recommendations to ensure that States
                   implement an effective and timely Level I and Level II process. CMS’s
                   comments did not warrant any revisions to the results of our review or
                   to our recommendations.




 OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   iv
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

           Almost all sampled residents received a Level I screen . . . . . . . . . . . . . 11 


           Two-thirds of sampled residents received a Level II PASRR . . . . . . . . . 11 


           Eighty-five percent of Level II PASRRs contained service
           recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


           PASRR may not consider community placements. . . . . . . . . . . . . . . . . 15 


           CMS oversight limited; States monitor aspects . . . . . . . . . . . . . . . . . . . 18 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                    A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    B: Level II PASRR Resident Review . . . . . . . . . . . . . . . . . . . . . . . 27 


                    C: Agency Comments. . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . .29 


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 

Δ   I N T R O D U C T I O N                                                    



                  OBJECTIVE
                  1. 	 To examine the extent to which Preadmission Screening and
                       Resident Review (PASRR) requirements were addressed for
                       Medicaid nursing facility residents aged 22 to 64 with serious
                       mental illness within selected States and selected nursing facilities.

                  2. 	 To assess Federal and State oversight of the PASRR process.


                  BACKGROUND
                  The Omnibus Budget Reconciliation Act of 1987 (OBRA 87) mandated
                  preadmission screening for individuals suspected of having mental
                  illness and mental retardation or related conditions1 to ensure that:
                  (1) nursing facilities admit only individuals needing nursing facility
                  care, (2) these individuals’ needs for specialized services are determined,
                  and (3) these individuals obtain the services identified through the
                  preadmission screening. The PASRR is the primary mechanism used to
                  meet these objectives.

                  States may have an incentive to place younger individuals with mental
                  illness in nursing facilities so they can obtain matching Federal
                  Medicaid funds. Medicaid funds do not cover the cost of long term care
                  for individuals aged 21 to 64 with serious mental illness in psychiatric
                  facilities or Institutions for Mental Diseases (IMD).2 However, Medicaid
                  will cover the cost of long term care for individuals with mental illness
                  aged 21 to 64 residing in nursing facilities that are not primarily
                  engaged in the care of persons with mental diseases.

                  However, nursing facilities may be ill equipped to meet the needs of
                  residents with mental illness. According to the 1999 U.S. Surgeon
                  General’s Mental Health report, there are “major barriers” that prevent
                  the delivery of appropriate care to these residents.3 In addition, placing
                  individuals with mental illness in nursing facilities may violate the

                     1 Related conditions are defined by 42 CFR § 435.1009.
                     2 An IMD is a hospital, nursing facility, or other institution of more than 16 beds that is

                  primarily engaged in the care of persons with mental diseases. Under sections 1905(a)(16)
                  and 1905(28)(B) of the Social Security Act, inpatients of psychiatric facilities who are over
                  21 and under 65 years of age are not covered by Medicaid.
                     3 Department of Health and Human Services, Substance Abuse and Mental Health
                  Services Administration, Center for Mental Health Services, National Institutes of Health,
                  and National Institutes of Mental Health, “Mental Health: A Report of the Surgeon
                  General,” p. 374, 1999.



OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   1
I N T R O D        U C T             I O N


                    Supreme Court’s 1999 decision in Olmstead v. L.C. (Olmstead).
                    Olmstead held that States are required to provide community-based
                    treatment for persons with mental disabilities when the State’s
                    treatment professionals determine that such placement is appropriate,
                    the affected persons do not oppose such treatment, and the placement
                    can be reasonably accommodated, taking into account the resources
                    available to the State and the needs of others with mental disabilities.4
                    In response to Olmstead, the Secretary of the Department of Health and
                    Human Services issued guidance to States in the form of a letter to
                    State Medicaid Directors. The letter states that “no one should have to
                    live in an institution or a nursing facility if they can live in the
                    community with the right support.”5 In addition, the President’s New
                    Freedom Initiative, begun in 2001, aims to remove barriers to
                    community living for persons with disabilities, including serious mental
                    illness.6
                    Preadmission Screening and Resident Review
                    The Social Security Act specifies that a nursing facility may not admit
                    an applicant who is mentally ill unless the State Mental Health
                    Authority (SMHA) has determined prior to admission that the
                    individual requires the level of services provided by a nursing facility
                    and, if the individual requires that level of services, whether the
                    individual requires specialized services for mental illness.7 As a
                    condition of the Centers for Medicare & Medicaid Services’ (CMS)
                    approval of a Medicaid State plan, the State must operate a
                    preadmission screening program that complies with Federal
                    regulations.8 The intent of the PASRR is to ensure that individuals
                    aged 22 to 64 with serious mental illness are appropriately screened,
                    thoroughly evaluated, and placed in nursing facilities when appropriate,
                    and that they receive all necessary services.




                       4 Olmstead v. L.C. 527 U.S. 581 (1999), 138 F.3d 893, affirmed in part, vacated in part,
                    and remanded.
                       5 Department of Health and Human Services, Centers for Medicare & Medicaid Services,
                    State Medicaid Director Letter, January 14, 2000.
                       6 Exec. Order No. 13217, 66 Fed. Reg. 33, 1555 (June 18, 2001).
                       7 42 U.S.C. § 1396r(b)(3)(F)(i).
                       8 42 CFR § 483.104.




 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   2
I N T R O D        U C T             I O N


                    Level I Screens. All individuals who apply to or reside in a
                    Medicaid-certified nursing facility, regardless of payer, are required to
                    receive a Level I PASRR screen to identify possible mental illness.9
                    There are no Federal requirements regarding who or what type of entity
                    must conduct Level I screens.

                    Federal regulations require that the Level I screen indicate whether an
                    individual has a suspected serious mental illness.10 For PASRR
                    purposes, the Federal definition of serious mental illness is based on
                    diagnosis, treatment history, and recent functional limitations.
                    Specifically, the individual must have a major mental disorder resulting
                    in functional limitations in major life activities within the past 3 to
                    6 months, and must have received intensive psychiatric treatment
                    within the past 2 years.11 States can either adopt the Federal definition
                    of serious mental illness or use a broader definition, as long as it
                    complies with the minimum Federal standard. Individuals suspected of
                    having mental illness must also receive a Level II PASRR.12
                    Level II Evaluations and Determinations. The Level II PASRR objectives
                    are to confirm whether the applicant has mental illness, assess the
                    applicant’s need for nursing facility services, and determine whether the
                    applicant requires specialized services for the mental illness.13 The
                    Level II PASRR must include a comprehensive psychiatric evaluation
                    and a determination.14
                    SMHA is ultimately responsible for the determination of whether an
                    individual requires nursing facility services and specialized services.15
                    SMHA may verbally convey Level II PASRR determinations to nursing
                    facilities and individuals, but must subsequently confirm the
                    determination in writing.16 Pursuant to regulation, SMHA must
                    contract with an independent entity to conduct the Level II PASRR
                    evaluation.17



                       9 42 CFR §§ 483.106 and 483.128(a). 

                       10 42 CFR § 483.128(a). 

                       11 42 CFR § 483.102(b)(1). 

                       12 42 CFR § 483.128(a). 

                       13 Ibid. 

                       14 42 CFR §§ 483.134(b)(4) and 483.130(a). 

                       15 42 CFR § 483.106(e)(1)(i). 

                       16 42 CFR § 483.112(c). 

                       17 42 CFR §§ 483.106(d)(1) and (e)(3). 





 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   3
I N T R O D        U C T             I O N


                    Assessment of Individual Needs and Appropriate Placement. Federal
                    regulations require evaluators to assess whether an individual’s total
                    needs can be met in a community setting or only on an inpatient basis
                    (e.g., nursing facilities, psychiatric hospital).18 Level II determination
                    notices must include the placement options that are available given the
                    results of the evaluator’s assessment.19 If an individual’s needs can be
                    met in the community, then nursing facility services are not needed.
                    Determining Services for Nursing Facility Residents With Mental Illness.
                    Level II PASRRs must identify whether specialized services are
                    necessary. For individuals with mental illness, specialized services are
                    the services specified by the State which, when combined with services
                    provided by the nursing facility or other service providers, result in a
                    continuous active treatment program.20 The State must provide or
                    arrange for the provision of specialized services to all nursing facility
                    residents whose mental illness was identified by the Level II PASRR.21
                    When specialized services are not recommended, Level II PASRRs must
                    identify any specific services of lesser intensity that are required to
                    meet the individual’s mental health needs.22 The nursing facility must
                    provide mental health services of lesser intensity to all residents who
                    need such services.23 Medicaid does not separately reimburse these
                    services of lesser intensity; they are considered a condition of
                    participation and must be paid by the nursing facility or under some
                    other arrangement with the State.
                    Level II Resident Reviews for Significant Changes in Condition. In addition to
                    initial Level II PASRRs, nursing facility residents may receive
                    subsequent Level II PASRR resident reviews during their nursing
                    facility stay. Federal law requires resident reviews when there is a
                    significant change in a resident’s physical or mental condition.24




                       18 42 CFR § 483.132. 

                       19 42 CFR § 483.130(l)(3). 

                       20 42 CFR §§ 483.120(a)(1) and 483.136. 

                       21 42 CFR § 483.120(b). 

                       22 42 CFR § 483.128(i)(4). 

                       23 42 CFR § 483.120(c). 

                       24 42 U.S.C. § 1396r(b)(3)(C)(i)(II).





 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   4
I N T R O D        U C T             I O N


                    Federal and State Oversight of PASRR
                    The State Medicaid agencies and CMS share responsibility for enforcing
                    PASRR requirements. State Medicaid agencies must deny Medicaid
                    payments for nursing facility services provided to individuals who do
                    not have a PASRR determination requiring these services.25
                    According to the fiscal year 2005 Medicaid Budget and Expenditure
                    Report, based on Form CMS-64, CMS spent approximately $51.2 million
                    nationally on the administration of the PASRR. These funds represent
                    the Federal share of each States’ PASRR program expenditures paid to
                    the State Medicaid agencies.

                    CMS contracts with State Medicaid agencies to survey and certify
                    nursing facilities to verify compliance with Federal requirements. Each
                    nursing facility is subject to a standard, unannounced survey by a
                    multidisciplinary team of professionals at least every 15 months.26
                    Surveyors cite noncompliance with Federal regulations using deficiency
                    tags. For these surveys, a sample of resident records is selected for
                    review. If sampled nursing facility residents have mental illness, then
                    surveyors must determine whether nursing facility services and
                    specialized services were needed.27
                    Previous Studies of PASRR
                    In the last 5 years, two studies and a nursing facility investigation
                    identified problems with States’ implementation of the PASRR.

                    The 2001 Office of Inspector General (OIG) report, entitled “Younger
                    Nursing Facility Residents with Mental Illness” (OEI-05-99-00700),
                    found a lack of compliance with PASRR requirements and minimal
                    State and Federal oversight of the PASRR.28 Specifically, OIG found
                    that only 47 percent of sampled residents with serious mental illness
                    had evidence of a Level I PASRR screen and only 41 percent of sampled
                    residents had evidence of a Level II PASRR in their case files.29
                    The report also found that, in 2001, four of five selected States relied on


                       25 42 U.S.C. § 1396r(e)(7)(D). 

                       26 42 U.S.C. § 1396r(g)(2)(A)(iii). 

                       27 The Centers for Medicare & Medicaid Services’ State Operations Manual,                                                   

                    Appendix PP, § 483.20(m).
                      28 Office of Inspector General, “Younger Nursing Facility Residents With Mental Illness:
                    Preadmission Screening and Resident Review (PASRR) Implementation and Oversight”
                    (OEI-05-99-00700), 2001.
                       29 Ibid.




 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S       5
I N T R O D        U C T             I O N


                    the State nursing facility survey agency to monitor the PASRR process.
                    However, State surveyors who were interviewed reported that
                    monitoring the PASRR process was not their responsibility.

                    In the 2001 report, OIG recommended that CMS improve Federal
                    monitoring and oversight of the PASRR, improve States’ ability to
                    determine appropriate facility placement, and improve access to mental
                    health treatment. In response to the 2001 OIG report, CMS created a
                    PASRR training video for surveyors. CMS also developed both a review
                    tool for its regional office staff to assess States’ PASRR programs and a
                    State self-assessment tool. The review tools have been neither finalized
                    nor distributed. CMS PASRR staff reported that they provide
                    PASRR-related guidance when States request technical assistance. No
                    additional OIG recommendations have been addressed to date.

                    A 2006 study conducted by the Substance Abuse and Mental Health
                    Services Administration also raised serious concerns regarding States’
                    ability to meet the PASRR objectives.30 In addition, a 2003 Department
                    of Justice investigation into one of the largest publicly operated nursing
                    facilities found that the facility failed to comply with PASRR
                    requirements.31
                    Concurrent Office of Inspector General Evaluation
                    Concurrent with this evaluation, OIG conducted an evaluation on
                    “Preadmission Screening and Resident Review for Younger Nursing
                    Facility Residents With Mental Retardation” (OEI-07-05-00230). These
                    studies were produced separately because in many States the mental
                    health service delivery system is distinct from the mental retardation
                    service delivery system.




                       30 Department of Health and Human Services, Substance Abuse and Mental Health

                    Services Administration, “PASRR Screening for Mental Illness in Nursing Facility
                    Applicants and Residents,” 2006.
                      31 Department of Justice, “Investigation of Laguna Honda Hospital and Rehabilitation
                    Center,” 2003.



 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   6
I N T R O D        U C T             I O N 




                    METHODOLOGY
                    We focused this review on the PASRR process in a purposive sample of
                    five States (California, Colorado, Georgia, Illinois, and New York). We
                    purposively selected these States based on the high proportion of
                    Medicaid nursing facility residents aged 22 to 64 with possible serious
                    mental illness identified by the calendar year (CY) 2004 Minimum Data
                    Set (MDS). In addition, we considered geographic location, States’
                    definition of specialized services, and availability of alternative
                    placements. Below we provide a basic description of our methodology.
                    See Appendix A for a more detailed description.
                    In each of the five selected States, we collected data from six sources:
                    (1) case file reviews of Medicaid nursing facility residents aged 22 to
                    64 with serious mental illness; (2) structured interviews with agency
                    officials from the selected States; (3) structured interviews with
                    administrators and staff from selected nursing facilities;
                    (4) structured interviews with CMS staff; (5) review of PASRR policy
                    documents, Level I PASRR screens, and Level II PASRR evaluation
                    forms from the selected States; and (6) review of data on the
                    placement recommendations for all 2004 Level II PASRR evaluations.
                    Case File Reviews of Nursing Facility Residents
                    Within each selected State, we used CY 2004 MDS data to select
                    4 nursing facilities with a high prevalence of residents aged 22 to 64
                    with possible serious mental illness, for a total of 20 nursing facilities.32
                    Within each of the nursing facilities, we randomly selected 10 current
                    residents who met the following criteria: 33
                    o	 Medicaid as the payer source;

                    o	 aged between 22 and 64 as of the nursing facility site visit date;

                    o	 diagnosis of mental illness which is likely to be correlated to the
                       PASRR definition of serious mental illness as defined in Federal
                       regulation (see Appendix A, Table 4 for specific International
                       Classification of Diseases, 9th Revision);


                       32 The MDS does not contain data that identify nursing facility residents with serious
                    mental illness. However, the MDS allowed us to use proxy variables for serious mental
                    illness, including history of mental illness, categories of mental illness, and history of
                    residence in a psychiatric setting. In addition, the MDS provided necessary demographic
                    information including age and Medicaid reimbursement.
                       33 In 2 facilities, 11 case files were reviewed.




 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   7
I N T R O D        U C T             I O N


                    o	 admitted on or after January 31, 2001 (this allowed us to focus on
                       the PASRR compliance after the 2001 OIG report “Younger Nursing
                       Facility Residents With Mental Illness: Preadmission Screening
                       and Resident Review Implementation and Oversight” was
                       published); and
                    o	 do not have a diagnosis of mental retardation, dementia, or
                       Alzheimer’s disease.

                    If 10 or fewer residents met our criteria, we selected all the residents
                    who met our criteria.

                    We reviewed a total of 186 case 
                                              Table 1: Number of Nursing Facility
                    files. The number of case files 
                                              Case Files Reviewed in Each State
                    reviewed per State is outlined in 

                                                                                                                                               Number of Case
                    Table 1.
                                                                                                             State                             Files Reviewed
                    We reviewed each resident’s                1                             40
                    case file to determine the                 2                             39
                    percentage of sampled residents            3                             42
                    who had any documentation,                 4                             31

                    herein referred to as evidence, of         5                             34
                                                              Total                        	186
                    a Level I screen and a Level II
                                                                  Source: OIG analysis of 186 case files, 2006.
                    PASRR in their case files. We
                    were unable to conduct separate analysis on Level II PASRR
                    evaluations and determinations due to the impossibility of
                    distinguishing between the evaluation and determination documents in
                    two selected States. Therefore, we refer to evidence of either a Level II
                    evaluation or determination as a “Level II PASRR” throughout our
                    findings.
                    We asked nursing facility administrators to produce the PASRR
                    documentation when it was not maintained in the resident’s file.
                    Nursing facilities must retain a Level I screen and, when appropriate, a
                    Level II PASRR.34 We also analyzed the PASRR documentation for
                    compliance with regulations related to timing and content.

                    We also examined the extent to which mental health service
                    recommendations were included in Level II PASRRs.35 We then
                    compared the mental health service recommendations to residents’


                       34 42 CFR §§ 483.130(j) and 483.75(4)(iv).
                       35 42 CFR §§ 483.120(b) and (c).




 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S           8
I N T R O D        U C T             I O N


                    charts and other documentation as a measure of whether recommended
                    services were provided. We allowed up to 6 months after the Level II
                    PASRR for the nursing facility to incorporate the recommended service
                    into the care plan.

                    We conducted a separate analysis of Level II PASRR resident reviews.
                    See Appendix B for our separate compliance analysis of Level II PASRR
                    resident reviews.
                    Structured Interviews and Documentation Review
                    In each of the five selected States, we interviewed representatives from
                    the State Medicaid agency, SMHA, the State’s long term care survey
                    and certification agency, and one SMHA-contracted mental health
                    evaluator responsible for conducting Level II PASRR evaluations.
                    Additionally, we collected all five States’ PASRR policy documents,
                    Level I screens, and Level II PASRR evaluation forms.

                    At each of the 20 sampled nursing facilities, we interviewed the nursing
                    facility administrator and other nursing facility staff responsible for the
                    PASRR process and the provision of mental health services.

                    We interviewed CMS PASRR and Survey and Certification Group staff
                    from headquarters and CMS regional office PASRR contacts
                    representing the five selected States. We also collected documentation
                    of CMS oversight activities, including draft guidance.
                    Review of Level II PASRR Evaluations
                    We sought to assess whether the five selected States considered
                    placement types other than nursing facility placement as part of the
                    Level II PASRR evaluation.36 To accomplish this, we reviewed Level II
                    PASRR evaluation forms and placement recommendations.

                    We reviewed 15 different Level II PASRR evaluation forms from the
                    5 selected States to determine whether they met all Federal content
                    requirements.37 To systematically review the placement
                    recommendations made in Level II PASRR evaluations, we reviewed
                    data on the total number of CY 2004 Level II PASRR evaluations in the


                       36 42 CFR § 483.132(a) and Olmstead v. L.C. (98-536) 527 U.S. 581 (1999), 138 F.3d 893,
                    affirmed in part, vacated in part, and remanded.
                       37 In CY 2004, three of the five selected States used one State-specific Level II PASRR
                    evaluation form and one State modified its form midyear, for a total of two forms. The fifth
                    State used a variety of forms, depending on the contracted mental health evaluator. For
                    this State, we randomly selected 10 forms for review.



 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   9
I N T R O D        U C T             I O N


                    five selected States and the placement recommendations made in these
                    evaluations.
                    Scope
                    Our review of the PASRR is limited to Medicaid beneficiaries aged 22 to
                    64 with serious mental illness residing in Medicaid-certified nursing
                    facilities in five selected States.38 We selected this population because
                    there are financial incentives under Medicaid for States to place
                    beneficiaries in nursing facilities, as opposed to IMDs.

                    We purposively selected five States and four nursing facilities within
                    each of these States. As such, we do not project our results to the
                    population of these five States, nursing facilities, or nursing facility
                    residents. In addition, we do not compare the results of this report to
                    those found in the 2001 OIG report “Younger Nursing Facility Residents
                    With Mental Illness: Preadmission Screening and Resident Review
                    (PASRR) Implementation and Oversight” (OEI-05-99-00700).

                    As part of this review, we evaluated whether Level II PASRR service
                    recommendations were incorporated into treatment plans. We did not
                    verify whether these services were provided, nor conduct a medical
                    review to determine the necessity of these services.
                    Standards
                    This study was conducted in accordance with “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                       38 Section 1905(h)(1)(C) of the Social Security Act states that after a beneficiary’s 21st
                    birthday, Medicaid no longer covers inpatient psychiatric care, unless the beneficiary is
                    under psychiatric care immediately preceding his or her 21st birthday. If so, Medicaid will
                    stop covering inpatient psychiatric services no later than his/her 22nd birthday.



 OEI-05-05-00220    PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   10
  F   I N D I N G        S
Δ         F I N D I N G S 




     Almost all sampled residents with serious                 Ninety percent of sampled residents
mental illness received a Level I screen that met              received a Level I screen
                        all Federal requirements               In our 5-State review, 90 percent
                                                               (168 of 186) of sampled residents
                        had a Level I screen in their case file. All individuals who apply to a
                        Medicaid nursing facility are required to receive a Level I screen to
                        identify suspected mental illness prior to nursing facility admission.39
                        Eighty-two percent of Level I screens we reviewed met both timing and
                        content requirements
                        Overall, 82 percent (138 of 168) of Level I screens met both timing and
                        content requirements. Eighty-eight percent (148 of 168) of Level I
                        screens were conducted prior to nursing facility admission, and
                        therefore met the timing requirement. The remaining 20 Level I
                        screens were, on average, 225 days past the date of admission.

                        Ninety-four percent (157 of 168) of Level I screens contained the
                        required content to identify suspected mental illness. Content
                        requirements for Level I screens are dictated by the definition of serious
                        mental illness used by the State. These screens must contain sufficient
                        content to determine whether an applicant has a suspected serious
                        mental illness.



   Two-thirds of sampled residents with serious                 Sixty-seven percent of sampled
mental illness had evidence of a Level II PASRR,                residents had evidence of a Level II
 but only 5 percent met all Federal requirements                PASRR
                                                                Nursing facility applicants
                                                                suspected of having mental
                        illness, according to their Level I screen, must receive a Level II PASRR
                        prior to admission to ensure appropriate placement and treatment.40
                        Overall, we found that 67 percent (124 of 186) of sampled nursing
                        facility residents had evidence of a Level II PASRR in their case files.

                        In three of the selected States, evidence of a Level II PASRR should
                        have been present for 100 percent of sampled residents. In these
                        3 States, we found evidence of a Level II PASRR for 64 percent


                           39 42 CFR §§ 483.102(a) and 483.128(a).
                           40 42 CFR § 483.128(a).




      OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   11
F   I N D I N G        S


                      (72 of 112) of sampled residents. These three States consider any
                      individual with a mental illness diagnosis as having a “serious mental
                      illness” for the purposes of the PASRR. Thus, in these States,
                      individuals with mental illness diagnoses trigger a referral for a Level II
                      PASRR, and all of the sampled residents in the three States had a
                      mental illness diagnosis.

                      In the remaining 2 States, 37 of the 45 residents (82 percent) who met
                      the criteria to necessitate a Level II PASRR had evidence in their case
                      file that they received one. These States use the more restrictive,
                      Federal definition of serious mental illness. In these States, only
                      nursing facility applicants with a serious mental illness diagnosis,
                      treatment history, and recent functional limitations are required to
                      receive a Level II PASRR.41
                      While only 5 percent of Level II PASRRs reviewed met timing and content
                      requirements, most contained required information regarding placement
                      and recommended services
                      Like Level I screens, Level II PASRRs must be completed prior to
                      nursing facility admission.42 Federal requirements delineate specific
                      content for Level II PASRRs that must be used in determining
                      appropriate placement and treatment for evaluated individuals.43
                      Overall, only 5 percent (6 of 121) of the Level II PASRRs reviewed met
                      both timing and content requirements.44
                      Sixty percent of Level II PASRRs were conducted prior to nursing facility
                      admission. Sixty percent (73 of 121) of all Level II PASRRs reviewed
                      were conducted prior to nursing facility admission. The 33 Level II
                      PASRRs conducted after admission were, on average, 106 days late.45
                      For sampled residents in 1 State, only 3 percent (1 of 32) of Level II


                         41 Additionally, in these 2 States, we found 15 Level II PASRRs in case files in which
                      either the Level I screen was missing or the Level I screen indicated that the Level II
                      PASRR was not required.
                         42 42 U.S.C. § 1396r(b)(3)(F).
                         43 42 CFR § 483.132(a).
                         44 We found that 67 percent (124 of 186) of sampled residents had evidence of Level II

                      PASRRs. The 124 resident files with a Level II PASRR included 3 files categorized as
                      “terminated,” which have separate content requirements in the Federal regulation. See
                      Appendix A for more information on these residents’ case files. The timing and content
                      analysis presented here was conducted on the 121 Level II PASRRs found in resident case
                      files that were not categorized as terminated.
                        45 There were 15 Level II PASRRs for which we were unable to determine the time of
                      completion.



    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   12
F   I N D I N G        S


                      PASRRs reviewed were completed prior to admission. The State
                      Medicaid agency, SMHA officials, and nursing facility staff from
                      sampled nursing facilities in this State indicated that Level II PASRR
                      evaluators often take several months to conduct Level II PASRRs, and
                      the State’s Medicaid agency authorizes 4-month stays for nursing
                      facility residents without Level II PASRRs.
                      Seven percent of Level II PASRRs met all content requirements. While only
                      7 percent (9 of 121) of the Level II PASRRs we reviewed met all content
                      requirements, most met requirements related to placement and
                      recommended services. Over 90 percent of Level II PASRRs contained
                      the required indications of placement option and need for nursing
                      facility services. In addition, 85 percent (103 of 121) of Level II PASRRs
                      contained mental health service recommendations and 72 percent (87 of
                      121) indicated whether specialized services were necessary. See Table 2
                      for details on Level II PASRR compliance with specific content
                      requirements.

                      At the same time, most Level II PASRRs were missing information that
                      could help nursing facilities provide appropriate mental health services.
                      The evaluator’s basis for the conclusions regarding treatment and
                      placement was present in less than half of case files. In addition, a
                      summary of the beneficiary’s medical and social history was included in
                      only 28 percent (34 of 121) of case files.

                      Additionally, many of the Level II PASRRs we reviewed were missing
                      technical information, including the evaluator’s name and professional
                      title, and a statement of the individual’s rights.




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   13
 F   I N D I N G            S          



               Table 2: Level II PASRR Content Compliance


               Required Level II PASRR Content                                           Level II PASRR Compliance
              Indicates placement option                                                                                          94% (114)
              Indicates need for nursing facility
              services                                                                                                            93% (113)
              Provides mental health service
              recommendations                                                                                                     85% (103)
              Indicates need for specialized
              services                                                                                                              72% (87)
              Provides evaluator’s name and
              professional title                                                                                                    53% (64)

              Provides basis for Level II
              placement and service conclusions                                                                                     46% (56)
              Provides summary of medical and
              social history                                                                                                        28% (34)

              Identifies Individual’s rights                                                                                        26% (32)
                                                                              Source: OIG review of 121 resident case files, 2006.




                                                                                                            All Level II PASRRs that conclude
  Eighty-five percent of sampled residents who
                                                                                                            that an applicant with serious
   received a Level II PASRR had mental health
                                                                                                            mental illness needs nursing
service recommendations. Thirty-three percent                                                               facility services must identify the
   had all recommended services incorporated                                                                specific mental health services
                           into their care plans                                                            that meet the individual’s needs.46
                                                                     Eighty-five percent of sampled
                           residents who received a Level II PASRR had mental health service
                           recommendations
                           Of those sampled residents who received a Level II PASRR, 85 percent
                           (103 of 121) received 1 or more mental heath service recommendations
                           for a specialized service, a service of lesser intensity, or both. The most
                           frequently recommended services were medication management, case
                           management, family therapy, and monitoring.




                              46 42 CFR §§ 483.128(i)(3)(4) and (5).




     OEI-05-05-00220       PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   14
F   I N D I N G        S


                      Thirty-three percent of sampled residents who received a Level II PASRR
                      with mental health service recommendations had these services
                      incorporated into their care plans
                      Thirty-three percent (34 of 103) of sampled residents who received an
                      initial Level II PASRR with mental health service recommendations
                      had all recommended services incorporated into their care plans.

                      Seventeen of twenty sampled nursing facilities reported that it is their
                      policy to incorporate Level II PASRR mental health service
                      recommendations into residents’ care plans. The other three nursing
                      facilities reported that they do not receive service recommendations for
                      their residents. However, four of the five Level II PASRRs we found in
                      these nursing facilities had mental health service recommendations.



    Consideration of community-based settings                Federal regulations require that
    may not always occur as part of the Level II             Level II PASRR evaluators assess
                                                             whether the individual’s total
                              PASRR process
                                                             needs are such that they can be
                      met in an appropriate alternative placement to nursing facilities,
                      including community-based settings, inpatient hospitals, and IMDs.47
                      Further, the Olmstead decision holds that services for persons with
                      disabilities should be provided consistent with the State’s determination
                      regarding the most appropriate setting. This requirement means that
                      States have a responsibility to place individuals with mental illness in
                      community settings rather than institutions when deemed
                      appropriate.48
                      Only two out of five selected States’ Level II PASRR evaluation forms
                      include the consideration of community placement
                      Only two of the five selected States’ Level II PASRR evaluation forms
                      prompt evaluators to consider the appropriateness of community-based
                      settings for nursing facility applicants with mental illness. Specifically,
                      one State’s form prompts evaluators to assess whether the applicant
                      could care for himself or herself and stay out of danger if placed in the
                      community. The other State’s form instructs evaluators to consider the
                      level and availability of support that would be needed for the applicant


                         47 42 CFR § 483.132(a).
                         48 Olmstead v. L.C. (98-536) 527 U.S. 581 (1999), 138 F.3d 893, affirmed in part, vacated
                      in part, and remanded.



    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   15
F   I N D I N G 
S


                      to remain in the community. In addition, Level II PASRR evaluators in
                      only these States report routinely considering the appropriateness of
                      community placements as part of the Level II PASRR.

                      In the three other States, a prompt to consider community placement is
                      not routinely included on the evaluation form and may occur only at the
                      discretion of the Level II PASRR evaluator. In two States, the Level II
                      evaluation forms do not prompt for the consideration of community
                      placements at all. In one of these States, this is due to the fact that
                      Level I screeners determine whether an individual should be placed in
                      the community. Federal law requires this determination occur during
                      the Level II PASRR process to ensure that qualified mental health
                      evaluators are making placement decisions.

                      The third State allows Level II PASRR evaluators to use a variety of
                      Level II PASRR evaluation forms, most of which prompt the evaluator
                      to consider available community options, but some of which do not.
                      Further, the Level II PASRR evaluator we interviewed in this State
                      reported that he does not consider community-based placements.
                      Respondents from all five States reported concern about appropriate
                      placement of individuals with serious mental illness aged 22 to 64
                      Some respondents reported concern that individuals aged 22 to 64 with
                      serious mental illness are inappropriately placed in nursing facilities.
                      Three Level II PASRR evaluators, from three separate States, reported
                      having this concern. In addition, 3 State surveyors, and staff in 9 of
                      20 sampled nursing facilities reported that the PASRR is ineffective in
                      ensuring the appropriate placement of individuals with mental illness
                      in nursing facilities.

                      Some respondents were also concerned that there are not adequate
                      numbers of alternative community-based placements for younger
                      individuals with serious mental illness, limiting Level II PASRR
                      evaluators’ ability to recommend community-based placements.
                      Level II evaluators from three States and three of five States’ Medicaid
                      agencies and SMHAs reported having this concern.
                      Two percent of 2004 Level II PASRRs for individuals aged 22 to 64 with
                      serious mental illness recommended community-based placement
                      Because our case file review focused exclusively on nursing facility
                      residents, and not on all individuals evaluated under the PASRR, we
                      also reviewed data on all Level II PASRRs conducted in CY 2004 for
                      individuals with suspected mental illness aged 22 to 64 in the five
                      selected States.

    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   16
F     I N D I N G             S


                             Eighty-five percent (6,278 of 7,397) of Level II PASRRs for individuals
                             aged 22 to 64 resulted in nursing facility placement recommendations,
                             4 percent (307 of 7,397) resulted in more restrictive inpatient placement
                             recommendations, and 2 percent (155 of 7,397) resulted in less
                             restrictive community placement recommendations. See Table 3 for
                             additional placement recommendation information.


    Table 3: 2004 PASRR Placement Recommendations for Individuals Aged 22 to 64 With a Serious
    Mental Illness
                                     States’ Level II
                                  Evaluation Forms
                                            Include                                                        More                        Less
              2004 Level           Consideration of                         Nursing                  Restrictive                 Restrictive                      Other,
              II for Ages               Community                     Facility Level               Than Nursing                Than Nursing                 Cancelled, or
State                22-64               Placement                           of Care                     Facility                    Facility                Don’t Know

1                    2,375                              Yes                         95%                            0%                           5%                   0%

2                      629                              Yes                         91%                            2%                           5%                   2%

3                      625                                No                        85%                            8%                        0.5%                  6.5%

4                    3,102                                No                        76%                            6%                           0%                  18%

5                      666                                No                        87%                            8%                           0%                   5%

    Overall
                     7,397                                             (6,278) 85%                        (307) 4%                     (155) 2%                (657) 9%
     Total
                                        Source: OIG analysis of five selected States’ 2004 Level II PASRR placement recommendations, 2006.




                             While we did not determine a causal relationship, we found that the two
                             selected States that prompt for the consideration of community
                             placement on their Level II evaluation forms had higher levels of
                             community placements. In the 2 selected States where Level II PASRR
                             evaluation forms prompt for the consideration of community placement,
                             5 percent (152 of 3,004) of Level II PASRRs recommended less
                             restrictive placement than nursing facilities for individuals aged 22 to
                             64 with mental illness.49 In contrast, in the 3 States with forms that do
                             not prompt the Level II evaluator to consider community placements,
                             less than 1 percent (3 of 4,393) of Level II PASRRs recommended a less
                             restrictive setting.


                               49 Since we did not conduct a clinical review of these Level II PASRRs, we do not know
                             what placement type is most appropriate.



     OEI-05-05-00220         PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S             17
F   I N D I N G        S          





    CMS conducts limited oversight; all five selected            CMS has a role in assisting
      States monitor aspects of the PASRR process                and guiding State oversight
                                                                 efforts. Pursuant to Federal
                                                                 regulation, State Medicaid
                      agencies must “retain ultimate control and responsibility” over the
                      PASRR process.50
                      CMS provides limited oversight and guidance to States
                      Seven of ten CMS regional PASRR contacts report providing limited
                      guidance and oversight to States regarding their PASRR process. In the
                      past 5 years, only two CMS regions report having conducted State
                      PASRR reviews. Further, only two CMS regions report having ever
                      provided PASRR-related training to States or nursing facilities.

                      Four of five selected States reported receiving limited Federal guidance.
                      Three of these States reported concern that PASRR regulations lack
                      clarity, creating confusion about how best to comply with Federal
                      standards. These three States reported unsuccessfully consulting with
                      CMS to better understand Federal PASRR regulations.
                      All five selected States link Medicaid payment to completion of the Level I
                      screen
                      To ensure that nursing facility residents receive Level I screens, all five
                      selected State Medicaid agencies report that Medicaid payment to
                      nursing facilities is linked to the completion of the Level I screen. In
                      these five States, nursing facilities will not be reimbursed for a
                      Medicaid-eligible resident unless he or she received a Level I screen and
                      the Medicaid agency has a copy of the document.
                      Three of five selected States report that they systematically monitor Level II
                      PASRRs
                      Three of five selected State Medicaid agencies report that they maintain
                      control over Level II PASRR outcomes by mandating that SMHAs
                      review the Level II PASRRs conducted by the contracted mental health
                      evaluator. These reviews seek to ensure that the Level II PASRRs
                      contain appropriate placement decisions and recommended services. In
                      two of these three States, the State Medicaid agencies mandate that
                      SMHAs review all Level II PASRRs. In the third selected State, SMHA
                      is required to review 5 percent of all Level II PASRRs recommending

                         50 42 CFR § 483.106(e).




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   18
F   I N D I N G 
S


                      nursing facility placement, and all Level II PASRRs recommending
                      inpatient hospitalization.

                      Two State Medicaid agencies report that they do not have processes for
                      systematically reviewing Level II PASRRs. In fact, in one State neither
                      the Medicaid agency nor SMHA even receives the Level II PASRRs for
                      review. In the other selected State, SMHA is required by the State
                      Medicaid agency to review only Level II PASRRs with contested
                      outcomes. None of the five selected States link Medicaid payment to the
                      completion of the Level II PASRR.
                      Three of five selected States report that they monitor the provision of
                      Level II PASRR-recommended services
                      Three selected States report that, in addition to the annual nursing
                      facility survey, they directly monitor whether Level II PASRR mental
                      health service recommendations are being delivered. Two of these three
                      States conduct this oversight as well as requiring that SMHAs
                      systematically review Level II PASRRs, as described above.

                      One State’s Medicaid agency expanded its annual nursing facility
                      survey to include a review of mental health services and comprehensive
                      assessments, including Level II PASRRs, for all residents with mental
                      illness. The second State’s Medicaid agency conducts a monthly review
                      of sampled nursing facility residents to assess whether they are
                      receiving the services recommended in their Level II PASRR as
                      required. This State’s Medicaid agency has future plans to recoup
                      Medicaid funds for the days residents did not receive recommended
                      services.
                      The third selected State’s SMHA annually reviews a sample of nursing
                      facility residents to assess whether Level II PASRR service
                      recommendations were provided.
                      The survey and certification process does not provide systematic oversight
                      of the PASRR
                      CMS contracts with States to survey nursing facilities, no less than
                      every 15 months, to verify compliance with Federal nursing facility
                      requirements.51 If surveyors identify noncompliance with Federal
                      PASRR regulations, a deficiency tag, F285, should be cited. In CY 2004,
                      F285 was cited 101 times in approximately 16,000 nursing facilities
                      nationwide.

                         51 42 U.S.C. § 1396r(g)(2)(A)(iii)(I).




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   19
F   I N D I N G        S


                      As part of the survey process, CMS directs State surveyors to review
                      PASRR documents when residents with mental illness randomly fall
                      into their survey sample.52 When a resident with mental illness was
                      randomly included in an annual survey, four of the five selected State
                      surveyors reported reviewing those files for evidence of Level I screens
                      and Level II PASRRs and, if recommended, services were incorporated
                      into the nursing facilities’ care plans. However, according to CMS
                      survey and certification staff we interviewed, surveyors are not required
                      to include a resident with mental illness in their survey sample, even
                      when there is a high prevalence of individuals with mental illness in a
                      nursing facility.

                      As part of their offsite survey preparation, surveyors are instructed to
                      review the PASRR documentation for nursing facility residents with
                      mental illness to consider purposefully including a resident with mental
                      illness in their sample.53 However, surveyors can only review the
                      PASRR documentation prior to the survey if the State makes these
                      documents available.54 None of the officials we interviewed from the
                      five selected State Medicaid agencies reported providing PASRR
                      documents to surveyors prior to the survey and none of the five State
                      surveyors we interviewed reported requesting or reviewing PASRR
                      documents prior to a nursing facility survey.




                        52 The Centers for Medicare & Medicaid Services’ State Operations Manual,
                      Appendix PP, § 483.20(m).
                        53 The Centers for Medicare & Medicaid Services’ State Operations Manual,
                      Appendix P, II.B.1 (Task 1)(B)(7).
                         54 Ibid.




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   20
Δ   R E C O M M E N D A T I O N S                                                                        


                  The PASRR process was created to ensure that individuals with mental
                  illness are not inappropriately placed in Medicaid nursing facilities.
                  The PASRR is the primary mechanism to ensure that individuals aged
                  22 to 64 with serious mental illness are screened, evaluated, and placed
                  in nursing facilities when appropriate, and receive identified needed
                  services. As such, it is essential that all State PASRR systems work
                  effectively.

                  This examination of the PASRR process found that not all residents
                  with serious mental illness received a Level I screen and/or a Level II
                  PASRR. Additionally, most Level II PASRRs did not comply with all
                  Federal requirements. We also found that while Level II PASRRs often
                  included recommendations for mental health services, only one-third of
                  case files had all services incorporated into residents’ care plans.
                  Finally, the Level II PASRR process does not appear to be used as a tool
                  to systematically consider alternative placements to nursing facilities.
                  Two percent of all CY 2004 Level II PASRRs for individuals aged 22 to
                  64 with serious mental illness in the five selected States resulted in
                  community-based placement recommendation.

                  We based our findings on a purposive sample and have not made any
                  statistical projections. However, the findings from the sample identify
                  deficiencies pertaining to the PASRR process that should be addressed
                  to ensure that individuals with serious mental illness are appropriately
                  placed and receive necessary mental health services. We therefore
                  recommend the following to CMS:
                  Hold State Medicaid agencies accountable for ensuring compliance with
                  Federal requirements. Specifically, we recommend that:
                  o	 every nursing facility applicant receives a Level I screen prior to
                     nursing facility admission,
                  o	 all individuals with suspected serious mental illness receive a
                     complete Level II PASRR prior to nursing facility admission and
                     that all Level II PASRR documentation is shared with the
                     admitting nursing facility, and
                  o	 the admitting nursing facility incorporate all recommended services
                     identified on the Level II PASRR into residents’ care plans and
                     provide for or arrange all of these services.

                  To address the above recommendations, we have several specific
                  suggestions for CMS to consider. First, CMS could require that State
                  Medicaid agencies provide data to CMS regarding the number of


OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   21
R   E C O        M M E N D A T                        I O N               S


                      completed Level I screens, the number of expected and completed
                      Level II PASRRs, and nursing facility confirmation of receipts of the
                      PASRR documentation. Alternatively, as part of CMS’s current efforts
                      to modify the MDS, CMS could consider adding a data element to
                      indicate whether a Level I screen and Level II PASRR have been
                      completed. Finally, we suggest that CMS distribute both its draft State
                      self-assessment form and its draft regional office assessment form as
                      tools to be used in the regular collection of information about each
                      State’s PASRR processes.
                      Hold States accountable for considering community placements during the
                      Level II PASRR process by:
                      o	 working with State Medicaid agencies to develop tools, such as
                         protocols, forms, and guidance to evaluators, to ensure that
                         community-based alternatives to nursing facility placement are
                         considered; and
                      o	 reviewing all States’ Level II PASRR evaluation forms to ensure
                         that consideration of community placement is included.
                      Revise survey and certification requirements to ensure that State surveyors:
                      o	 sample residents with serious mental illness,

                      o	 review all PASRR documentation for timely completion, and

                      o	 review care plans for the incorporation of all Level II PASRR
                         mental health service recommendations.


                      AGENCY COMMENTS
                      CMS concurred with all of our recommendations. CMS intends to
                      remind States of their obligation to implement an effective and timely
                      Level I and Level II process, clarifying for States all of the Level II
                      elements required by Federal regulation. In addition, CMS intends to
                      review State claims, if necessary, to ensure that States recoup Federal
                      Financial Participation from nursing facilities for any days claimed
                      prior to the completion of all PASRR documentation. CMS intends to
                      review the forms and tools used by each State for the PASRR Level II
                      evaluation and determination to assess whether they include
                      consideration of community placement. To address our final
                      recommendation regarding revising survey and certification
                      requirements to ensure oversight of PASRR, CMS stated it will ensure
                      that a resident requiring a Level II PASRR is included in the resident
                      sample during a nursing facility survey.

    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   22
R   E C O        M M E N D A T                        I O N               S


                      CMS’s comments did not warrant any revisions to the results of our
                      review or to our recommendations. For the full text of CMS’s comments,
                      see Appendix C.




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   23
Δ   A P P E N D I X                                   ∼            A





                       DETAILED METHODOLOGY
                       State Selection
                       Our purposive sample did not include the same States selected in the
                       Office of Inspector General’s 2001 report, with the exception of
                       California. We chose different States than those involved in the
                       concurrent OIG evaluation “Preadmission Screening and Resident
                       Review for Younger Nursing Facility Residents With Mental
                       Retardation” (OEI-07-05-00230) to reduce the burden on any one State
                       during its participation in this review.
                       Case File Reviews
                       Our criteria for sample inclusion in the case file review included the
                       following diagnosis codes:

        Table 4: Selected Diagnosis Codes for Serious Mental Illness
        ICD-9
        (Diagnosis)
        Codes             Description of Mental Disorder Category
                          Transient mental disorders due to conditions classified elsewhere; includes
        293
                          transient organic mental disorders not associated with drugs or alcohol
        294 (some
                          Persistent mental disorders due to conditions classified elsewhere; includes
        dementia
                          organic psychotic brain syndromes (chronic) not elsewhere classified
        exceptions)
        295               Schizophrenic psychoses                                       


                          Episodic mood disorders; includes episodic affective disorders; 

        296
                          does not include 296.2: Major Depressive Disorder, single episode

        297               Delusional disorders; includes paranoid disorders

                          Other nonorganic psychoses; includes psychotic conditions due to or provoked
        298
                          by emotional stress or environmental factors
        299               Psychoses with origin specific to childhood

        300               Anxiety, dissociative, and somatoform disorders

        301               Personality disorders; includes character neurosis

        307.1             Special symptoms or syndromes not elsewhere classified: Anorexia nervosa

        307.51            Special symptoms or syndromes not elsewhere classified: Bulimia nervosa

        312               Disturbance of conduct not elsewhere classified
                  Source: International Classification of Diseases, 9th Revision, List of Three Digit Categories, FY 2005.




OEI-05-05-00220        PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   24
A   P   P E N D       I X ~        A


                      Analysis of Level I screen and Level II Preadmission Screening and
                      Resident Reviews
                      To assess whether Level I screens and Level II Preadmission Screening
                      and Resident Reviews (PASRR) were in compliance with timing
                      requirements, we determined whether the Level I screen and Level II
                      PASRR were completed prior to or on the resident’s current nursing
                      facility admission date.

                      To assess whether Level I screens contained required content, we
                      assessed whether they indicated that the individual had a suspected
                      mental illness. Pursuant to Federal regulation (42 CFR § 483.102(b)(1)
                      and 42 CFR § 483.102(b)(iii)(B)), a State may use the Federal definition
                      of serious mental illness or a broader definition of serious mental
                      illness. As such, each Level I screen was assessed using its State’s
                      definition of serious mental illness.

                      The Level II PASRR process comprises a mental health and physical
                      evaluation, notice of completion of the evaluation, determination letter,
                      and summary of findings. If we found any of these documents, we
                      considered this evidence of a Level II PASRR. We reviewed the Level II
                      PASRRs to determine whether they included all required components as
                      detailed in Federal regulations (42 CFR § 483.128(i) and
                      42 CFR § 483.130(l)).

                      Specifically, we reviewed each resident’s Level II PASRR to see if it
                      included: (1) recommended placement option, (2) need for nursing
                      facility services, (3) need for specialized services, (4) rights of the
                      individual, (5) name and professional title of the evaluator,
                      (6) recommendations for services of lesser intensity and/or specialized
                      services, (7) summary of the resident’s social and medical history, and
                      (8) basis for the evaluator’s conclusions. If any required item was
                      missing, we determined that the Level II PASRR was not in compliance
                      with Federal requirements.

                      We also reviewed all aspects of selected States’ Level II PASRR
                      evaluation and determination form templates to determine whether
                      they contained the categories needed to capture the required content.

                      Level II PASRRs that the State Mental Health Authority (SMHA)
                      determined did not need to be completed due to a regulatory exemption
                      were categorized as terminated. In our case file review, we found three




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   25
A   P   P E N D       I X ~        A


                      terminated Level II PASRRs.55 Terminated Level II PASRRs have
                      limited content requirements compared to completed Level II PASRRs.
                      Terminated Level II PASRRs were assessed under these limited content
                      requirements as described in Federal regulation (42 CFR § 483.128(m)).
                      All three terminated Level II PASRRs met all content requirements.
                      We did not include the three terminated Level II PASRRs in our overall
                      Level II PASRR compliance review.

                      We also reviewed residents’ case files to determine the extent to which
                      Level II PASRRs’ specialized mental health service recommendations
                      were documented by the nursing facility as either provided or arranged
                      by the State, and the extent to which recommended “services of lesser
                      intensity” were incorporated into the resident’s care plan by the nursing
                      facility as required.56




                        55 The three Level II PASRRs were terminated because the evaluator determined that
                      the individuals had dementia.
                         56 42 CFR § 483.128(i).




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   26
Δ   A P P E N D I X ~ B                                         



                  LEVEL II PASRR RESIDENT REVIEW
                  The Omnibus Budget Reconciliation Act of 1987 required annual Level
                  II PASRR resident reviews (readministration of the Level II PASRR) for
                  nursing facility residents with serious mental illness. The 1996
                  Nursing Home Facility Resident Act, Public Law 104-315, repealed the
                  annual review requirement and instead required a Level II PASRR
                  resident review when there is a significant change in a resident’s
                  physical or mental condition.

                  Each SMHA must establish a notification procedure for nursing
                  facilities to promptly notify SMHA when a resident’s mental or physical
                  status has significantly changed.57 SMHA is then required to conduct a
                  Level II PASRR resident review or reassessment if this change has a
                  “bearing on the active treatment needs” of the resident.58
                  A Level II PASRR resident review enables SMHA to determine:
                  (1) whether the nursing facility remains the most appropriate
                  placement option, (2) any new services a resident may need, and
                  (3) what services should be provided by the nursing facility or provided
                  or arranged by the State.
                  Five percent of case files had evidence of a Level II PASRR resident review
                  We could not determine how many residents experienced a significant
                  change warranting a Level II PASRR resident review. In our case file
                  review, 5 percent of sampled residents had evidence of a Level II
                  PASRR resident review, for a total of nine Level II PASRR resident
                  reviews. Without a Level II PASRR resident review, residents are
                  limited to their initial Level II PASRR despite any potential change in
                  their mental health status that might necessitate that they be placed in
                  a more appropriate setting or receive needed mental health treatment.

                  We found that while none of the nine Level II PASRR resident reviews
                  met all content requirements, most included key information such as
                  needed mental health services and recommended placement option.




                     57 The Nursing Home Facility Resident Reform Act, Public Law No. 104-315 § 2 (1996).
                     58 Ibid.




OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   27
A   P   P E N D       I X ~        B


                      Four States have established a notification process for triggering Level II
                      PASRR resident reviews, but only half of the selected nursing facilities
                      follow notification protocol
                      To ensure that nursing facility residents with serious mental illness
                      who experience a significant change in physical or mental condition
                      receive appropriate services in an appropriate placement, four of the
                      five selected States have established a process for nursing facilities to
                      report a resident’s significant change in status. This notification
                      triggers a review by SMHA to determine whether a resident needs a
                      Level II PASRR resident review to reassess his or her treatment and
                      placement needs. However, despite these established notification
                      procedures, only 8 of 16 nursing facilities in these States reported that
                      their procedure is to directly notify the State about a resident’s
                      significant change.

                      One selected State does not have a process for nursing facilities to
                      report a resident’s significant change in status and none of the four
                      nursing facilities in that State reported that there would ever be an
                      instance in which a resident would receive another Level II PASRR.




    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   28
Δ   A P P E N D I X                              ~ C                  



                  AGENCY COMMENTS 





OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   29
A P P E N D        I X ~ C




 OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   30
A   P   P E N D       I X          ~            C            





    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   31
A   P   P E N D       I X ~ C 





    OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   32
 Δ        A C K N O W L E D G M E N T S

This report was prepared under the direction of Ann Maxwell, Regional Inspector General for
Evaluation and Inspections in the Chicago regional office. Other principal Office of Evaluation
and Inspections staff who contributed include:

                        Emily Melnick, Team Leader
                        Susan Otter, Team Leader

                        Anne Bracken, Program Analyst

                        Caryn Roseman, Program Analyst

                        Sandy Khoury, Program Specialist

                        Tricia Davis, Director, Medicare Branch




      OEI-05-05-00220   PA S R R   FOR   Y O U N G E R N U R S I N G FA C I L I T Y R E S I D E N T S W I T H S E R I O U S M E N TA L I L L N E S S   33
